                     AUDIT REPORT
  Audit of NRC’s Management of the Baseline Security Inspection Program


                       OIG-12-A-10 March 8, 2012




All publicly available OIG reports (including this report) are accessible through
                              NRC’s Web site at:
             http:/www.nrc.gov/reading-rm/doc-collections/insp-gen/
                                 UNITED STATES
                         NUCLEAR REGULATORY COMMISSION
                                  WASHINGTON, D.C. 20555-0001



OFFICE OF THE
INSPECTOR GENERAL


                                                   March 8, 2012




MEMORANDUM TO:              R. William Borchardt
                            Executive Director for Operations



FROM:                       Stephen D. Dingbaum /RA/
                            Assistant Inspector General for Audits


SUBJECT:                    AUDIT OF NRC’S MANAGEMENT OF THE BASELINE
                            SECURITY INSPECTION PROGRAM (OIG-12-A-10)


Attached is the Office of the Inspector General’s audit report titled, Audit of NRC’s
Management of the Baseline Security Inspection Program.

This report presents the results of the subject audit. Agency comments provided at the
February 29, 2012, exit conference have been incorporated, as appropriate, into this
report.

Please provide information on actions taken or planned regarding each of the
recommendations within 30 days of the date of this memorandum. Actions taken or
planned are subject to OIG follow-up in accordance with Management Directive 6.1.

We appreciate the cooperation extended to us by the members of your staff during this
audit. If you have any questions or wish to discuss anything prior to the exit conference,
please call me at 415-5915 or Beth Serepca, Team Leader, at 415-5911.

Attachment: As stated

cc:    N. Mamish, OEDO
       K. Brock, OEDO
       J. Arildsen, OEDO
       C. Jaegers, OEDO
                                    Overview of NRC’s Management of the Baseline Security Inspection Program


EXECUTIVE SUMMARY

        BACKGROUND

                Baseline Security Inspection Program

                The Nuclear Regulatory Commission’s (NRC) baseline security inspection
                program is the agency’s primary means for ensuring that nuclear power
                plants across the United States are protected in accordance with Federal
                Government regulations.1 Specifically, the baseline security inspection
                program has six objectives:

                    1. To gather sufficient, factual information to determine with high
                       assurance if a licensee’s security system and material control and
                       accounting program2 can protect against radiological sabotage, and
                       the theft or loss of special nuclear material.

                    2. To determine a licensee’s ability to identify, assess, and correct
                       security issues in proportion with the significance of these issues.

                    3. To determine if licensees, working with external agencies, are
                       capable of deterring and protecting against the Design Basis
                       Threat.3

                    4. To validate performance indicator data, which NRC uses in
                       conjunction with inspection findings to assess the security
                       performance of power reactor licensees.

                    5. To help NRC monitor plants’ security status and conditions.




1
 Chapter 10 Part 73 of the Code of Federal Regulations (10 CFR 73) establishes security regulations for
operating nuclear power plants.
2
 The basic objective of material control and accounting is to prevent the loss or misuse of Special
Nuclear Material (i.e., enriched uranium or plutonium).
3
  The Design Basis Threat describes the capabilities of adversaries, such as terrorist groups, that could
attack a nuclear power plant. The Design Basis Threat is based on classified and other sensitive
information, and NRC revises it periodically to reflect current security issues. An unclassified version
appears in 10 CFR 73.1(a).


                                                     i
                                     Overview of NRC’s Management of the Baseline Security Inspection Program


                     6. To identify significant issues that may have generic or crosscutting
                        applicability to the safe and secure operation of licensees’ facilities.

                To meet these objectives, NRC conducts routine inspections at nuclear
                power plants that focus on specific issue areas such as access controls,
                protective strategy, security training, and safeguards information (SGI)
                controls.4


                Significance Determination Process

                The Significance Determination Process (SDP) is the process by which
                NRC staff assess the risks and potential effects of inspection findings. In
                following the SDP, NRC staff systematically analyze apparent violations
                and characterize them under the following color-code scheme:
                       Green = Very low safety significance.
                       White = Low to moderate safety significance.
                       Yellow = Substantial safety significance.
                       Red = High safety significance.

                NRC staff close Green findings in their inspection reports without
                additional analysis, but White, Yellow, and Red findings require more in-
                depth analysis using SDP assessment tools. Since 2004, NRC has
                created several assessment tools for different types of security violations.
                These tools and their respective issue areas are:

                     Physical Protection [Access Controls, Access Authorization, Physical
                     Protection, Contingency Response].
                     Material Control and Accounting of Radiological Materials.
                     Unsecured Safeguards Information.
                     Significance Screen.5
                     Force-on-Force Exercise Performance.

4
  SGI is defined as information the disclosure of which could reasonably be expected to have a significant
adverse effect on the health and safety of the public and/or the common defense and security by
significantly increasing the likelihood of theft, diversion, or sabotage of material or facilities subject to
NRC jurisdiction. This information is not classified as National Security Information or Restricted Data.

5
  The Significance Screen is used to assess violations such as security personnel sleeping on duty; pipes
leading from outside a plant into the plant’s Protected Area without adequate barriers or monitoring; and
unauthorized firearms brought inside a plant by employees or contractors.

                                                      ii
                      Overview of NRC’s Management of the Baseline Security Inspection Program



PURPOSE

      The objective of this audit was to evaluate NRC’s management of the
      baseline security inspection program, including specific program features
      such as the Significance Determination Process.


RESULTS IN BRIEF

      NRC has appropriate management controls to ensure the baseline
      security inspection program meets its objectives. However, a more
      systematic approach to analyzing security findings data beyond the
      regional level can help NRC staff better identify licensee performance
      trends. Further, periodic reviews of SDP assessment tools and systematic
      testing of new and revised SDP assessment tools can help staff apply
      SDP assessment tools in a more transparent and consistent manner.

RECOMMENDATIONS

      This report makes five recommendations to improve NRC’s management of
      the baseline security inspection program. A list of these recommendations
      appears on page 18 of this report.

Agency Comments

      At an exit conference on February 29, 2012, agency management
      provided informal comments on a draft of this report. The Office of the
      Inspector General incorporated some of these comments into the report
      as appropriate. As a result, the agency opted not to provide formal
      comments for inclusion in this report.




                                      iii
                 Overview of NRC’s Management of the Baseline Security Inspection Program


ABBREVIATIONS AND ACRONYMS

       ADAMS   Agencywide Documents Access and Management
               System

       CFR     Code of Federal Regulations

       FTE     Full-Time Equivalents

       FY      Fiscal Year

       IMC     Inspection Manual Chapter

       MD      Management Directive

       NRC     Nuclear Regulatory Commission

       OIG     Office of the Inspector General

       PIM     Plant Issues Matrix

       ROP     Reactor Oversight Process

       RPS     Reactor Program System

       SDP     Significance Determination Process

       SGI     Safeguards Information

       SLES    Safeguards Information Local Area Network and
               Electronic Safe




                                 iv
                             Overview of NRC’s Management of the Baseline Security Inspection Program


TABLE OF CONTENTS

        EXECUTIVE SUMMARY ........................................................................... i

        ABBREVIATIONS AND ACRONYMS ........................................................ v

        I.      BACKGROUND .............................................................................. 1

        II.     PURPOSE ...................................................................................... 8

        III.    FINDINGS ....................................................................................... 8

                A. NRC CAN IMPROVE INTERNAL CONTROL OVER BASELINE
                   SECURITY INSPECTION PROGRAM DATA. ........................................ 9

                B. NRC LACKS CONSENSUS ON CONTENT AND APPLICATION
                   OF SGI AND SIGNIFICANCE SCREEN TOOLS. ................................. 15


        IV.     CONSOLIDATED LIST OF RECOMMENDATIONS ..................... 18

        V.      AGENCY COMMENTS ................................................................. 19

        APPENDIXES

                A. POWER REACTOR SITES BY LICENSEE
                   OPERATOR AND NRC REGION ............................................ 20

                B. OBJECTIVE, SCOPE, AND METHODOLOGY........................ 21




                                                 v
                                    Overview of NRC’s Management of the Baseline Security Inspection Program


I.      BACKGROUND

                The Nuclear Regulatory Commission’s (NRC) baseline security inspection
                program is the agency’s primary means for ensuring that nuclear power
                plants across the United States are protected in accordance with Federal
                Government regulations.6 Specifically, the baseline security inspection
                program has six objectives:

                    1. To gather sufficient, factual information to determine with high
                       assurance if a licensee’s security system and material control and
                       accounting program7 can protect against radiological sabotage, and
                       the theft or loss of special nuclear material.

                    2. To determine a licensee’s ability to identify, assess, and correct
                       security issues in proportion with the significance of these issues.

                    3. To determine if licensees, working with external agencies, are
                       capable of deterring and protecting against the Design Basis
                       Threat.8

                    4. To validate performance indicator data, which NRC uses in
                       conjunction with inspection findings to assess the security
                       performance of power reactor licensees.




6
 Chapter 10 Part 73 of the Code of Federal Regulations (10 CFR 73) establishes security regulations for
operating nuclear power plants.
7
 The basic objective of material control and accounting is to prevent the loss or misuse of Special
Nuclear Material (i.e., enriched uranium or plutonium).
8
  The Design Basis Threat describes the capabilities of adversaries, such as terrorist groups, that could
attack a nuclear power plant. The Design Basis Threat is based on classified and other sensitive
information, and NRC revises it periodically to reflect current security issues. An unclassified version
appears in 10 CFR 73.1(a).


                                                     1
                                     Overview of NRC’s Management of the Baseline Security Inspection Program


                     5. To help NRC monitor plants’ security status and conditions.

                     6. To identify significant issues that may have generic or crosscutting
                        applicability to the safe and secure operation of licensees’ facilities.

                To meet these objectives, NRC conducts routine inspections at nuclear
                power plants that focus on specific issue areas such as access controls,
                protective strategy, security training, and safeguards information (SGI)
                controls.9 Personnel at NRC’s four regional offices plan and conduct
                baseline security inspections at nuclear power plants within their
                respective regions. Headquarters staff in NRC’s Office of Nuclear
                Security and Incident Response (NSIR) support baseline security
                inspections through policy and guidance development, licensee
                performance data review, and review of escalated licensee violations.
                NSIR staff also conduct Force-on-Force inspections—the only type of
                baseline security inspections conducted by headquarters staff with support
                from regional staff.10 In Fiscal Year (FY) 2012, NRC allocated 11.5 Full-
                Time Equivalents (FTE) for headquarters activities in the baseline security
                inspection program, and 5.7 FTE for program activities at each of the four
                regions for a total of 34.3 FTE. NRC staff expect these resource levels to
                remain constant in FY 2013.




9
  SGI is defined as information the disclosure of which could reasonably be expected to have a significant
adverse effect on the health and safety of the public and/or the common defense and security by
significantly increasing the likelihood of theft, diversion, or sabotage of material or facilities subject to
NRC jurisdiction. This information is not classified as National Security Information or Restricted Data.
10
  Force-on-Force inspections require licensees to demonstrate their security capabilities through tactical
exercises in which mock terrorist groups simulate attacks against nuclear power plants. Congress
mandated triennial Force-on-Force inspections in the 2005 Energy Policy Act.

                                                     2
                              Overview of NRC’s Management of the Baseline Security Inspection Program


              Figure 1 shows NRC’s regions, as well as the locations of regional and
              headquarters offices, and the agency’s Technical Training Center.

              Figure 1: Map of the United States and NRC Regions




Source: NRC




                                              3
                                    Overview of NRC’s Management of the Baseline Security Inspection Program


                Significance Determination Process

                The Significance Determination Process (SDP) is the process by which
                NRC staff assess the risks and potential effects of inspection findings. In
                following the SDP, NRC staff systematically analyze apparent violations
                and characterize them under the following color-code scheme:
                       Green = Very low safety significance.
                       White = Low to moderate safety significance.
                       Yellow = Substantial safety significance.
                       Red = High safety significance.

                NRC staff close Green findings in their inspection reports without
                additional analysis, but White, Yellow, and Red findings require more in-
                depth analysis using SDP assessment tools. Since 2004, NRC has
                created several assessment tools for different types of security violations.
                These tools and their respective issue areas are:

                    Physical Protection [Access Controls, Access Authorization, Physical
                    Protection, Contingency Response].
                    Material Control and Accounting of Radiological Materials.
                    Unsecured Safeguards Information.
                    Significance Screen.11
                    Force-on-Force Exercise Performance.




11
  The Significance Screen is used to assess violations such as security personnel sleeping on duty;
pipes leading from outside a plant into the plant’s Protected Area without adequate barriers or monitoring;
and unauthorized firearms brought inside a plant by employees or contractors.

                                                     4
                      Overview of NRC’s Management of the Baseline Security Inspection Program


Figure 2 shows security barriers, which are one of many security system
elements that NRC staff inspect at nuclear power plants.

Figure 2: Security Barriers at a Nuclear Power Plant




Source: NRC

      White, Yellow, and Red findings require additional review by NRC staff.
      First, NRC notifies licensees of a finding, and licensees must then formally
      respond by either accepting the finding and committing to corrective
      actions, or by contesting the finding. Second, NRC management must
      review findings to ensure that their staff have applied SDP assessment
      tools correctly. Third, if licensees contest findings, they may provide
      mitigating information or other analysis to explain why they believe
      findings should be downgraded. NRC staff must factor this information
      into their final decision. Lastly, the technical complexity of a particular
      finding can impact the amount of time and effort needed by NRC staff and
      licensee personnel to support their respective positions.




                                      5
                                      Overview of NRC’s Management of the Baseline Security Inspection Program


                  Greater-than-Green findings are relatively uncommon in the baseline
                  security inspection program. In 2010, for example, NRC issued 112
                  Green findings, and 6 Greater-than-Green findings.12

                  Correct and consistent application of SDP assessment tools is essential to
                  the Reactor Oversight Process (ROP), which is NRC’s framework for
                  regulating the nuclear power industry. The ROP is based upon principles
                  of risk-informed decisionmaking and transparency. Accordingly, NRC
                  should:

                      Focus inspections on activities where the potential risks are greater.
                      Apply greater regulatory attention to nuclear power plants with
                      performance problems.
                      Use objective measurements of performance of nuclear power plants.
                      Give both the public and the nuclear industry timely and
                      understandable assessments of plant performance.
                      Respond to violations of regulations in a predictable and consistent
                      manner that reflects the potential safety impact of the violations.

                  The ROP categorizes NRC’s oversight activities into seven distinct
                  ―cornerstones‖ of safe operation, one of which is physical protection. NRC
                  also assesses licensee performance in the context of cross-cutting issues,
                  such as problem identification and resolution, which may affect multiple
                  ROP cornerstones.




12
     These do not include results of Force-on-Force inspections.

                                                      6
                       Overview of NRC’s Management of the Baseline Security Inspection Program


Figure 3 illustrates the ROP cornerstones and their relation to key oversight
areas and cross-cutting issue areas.

Figure 3: Reactor Oversight Process Framework




Source: NRC

      The ROP is complemented by NRC’s enforcement program, which, in this
      context, focuses on violations that are caused by deliberate misconduct.
      NRC may pursue enforcement action against licensees while staff are
      determining a finding’s significance within the ROP framework.
      Enforcement action can result in the issuance of civil penalties against
      licensees.




                                       7
                           Overview of NRC’s Management of the Baseline Security Inspection Program


II.    PURPOSE

           The audit objective was to evaluate NRC’s management of the baseline
           security inspection program, including specific program features such as
           the Significance Determination Process. Appendix B contains information
           on the audit scope and methodology.



III.   FINDINGS

           NRC has appropriate management controls to ensure the baseline
           security inspection program meets its objectives. However, a more
           systematic approach to analyzing security findings data beyond the
           regional level can help NRC staff better identify licensee performance
           trends. Further, periodic reviews of SDP assessment tools and systematic
           testing of new and revised SDP assessment tools can help staff apply
           SDP assessment tools in a more transparent and consistent manner.




                                           8
                                    Overview of NRC’s Management of the Baseline Security Inspection Program


        A.      NRC Can Improve Internal Control Over Baseline Security Inspection
                Program Data

                Federal Government and NRC guidance on internal control13 recommend
                the use of data analysis to inform program operations and management.
                NRC maintains data on security inspection findings, but does not
                systematically analyze it to identify trends among NRC regions and
                licensee fleets.14 This occurs because NRC’s baseline security inspection
                program emphasizes analysis of individual licensee performance and
                performance of licensees within each of the four NRC regions. As a
                result, NRC may miss opportunities to improve monitoring and
                management of security issues, inspection procedures, and tools.

                Effective Internal Control Is Key To Maintaining Visibility Over
                Program Operations and Results.

                Federal Government and NRC internal control guidance recommend that
                program managers analyze appropriate information sources used in the
                baseline security inspection program to inform program operations and
                decisions and to ensure programs achieve intended results. Internal
                controls comprise the plans, methods, and procedures used to meet
                missions, goals, and objectives. These controls include managers at all
                levels analyzing trends and measuring results against targets. Controls
                must be developed as programs are initially implemented, as well as when
                they are reengineered. Additionally, managers should employ a variety of
                activities ensuring that edit checks are used in controlling data entry and
                that access to data and data systems is appropriately controlled.




13
  Standards for Internal Control in the Federal Government (GAO/AIMD-00-21.3.1) U.S. General
Accounting Office, Washington DC: 1999 and NRC Management Directive 4.4,‖Management Controls,‖
May 18, 2004.
14
   A fleet refers to a group of nuclear power plants operated by one licensee. Plants belonging to a
licensee’s fleet can be located in one or more NRC regions.

                                                    9
                                      Overview of NRC’s Management of the Baseline Security Inspection Program


                  NRC Does Not Perform Systematic Cross-Regional or Cross-Fleet
                  Analysis of Security Trends

                  NRC maintains and uses multiple information sources to monitor plant
                  performance, but managers do not perform systematic analysis to assess
                  trends across NRC regions or licensee fleets. For example, NRC
                  maintains many information sources pertaining to inspection findings and
                  has visibility over individual plant performance through the use of
                  inspection reports stored in the Agencywide Documents Access and
                  Management System (ADAMS),15 inspection reports stored in the
                  Safeguards Information Local Area Network and Electronic Safe (SLES),16
                  mid- and end-of-cycle assessments, the Plant Issues Matrix (PIM),
                  Reactor Program System (RPS) data, and annual reports to Congress.
                  However, NRC does not perform systematic cross-regional or cross-fleet
                  analysis of security inspection trends. Figure 4 shows information sources
                  used in the baseline security inspection program.




15
  ADAMS is the official recordkeeping system through which NRC provides access to vast "libraries" or
collections of documents related to the agency’s regulatory activities.
16
     SLES is NRC’s information repository for all SGI.


                                                         10
                             Overview of NRC’s Management of the Baseline Security Inspection Program


     Figure 4: NRC Baseline Security Inspection Program Information Sources

     Information Source                          Description
     Inspection Reports                          Inspection reports, written by NRC
                                                 inspectors, provide NRC with all the
                                                 details of the final disposition of
                                                 findings uncovered during NRC
                                                 inspections of power reactors.
                                                 Details include the date of the
                                                 inspection, the number and types of
                                                 findings, and the safety significance
                                                 (color designation of the finding).
     SLES                                        NRC’s repository for all inspection
                                                 reports and other documents
                                                 containing SGI.
     Mid/End Cycle Plant                         Reports issued at the beginning of
     Assessment Reports                          March and September of each year
                                                 for each reactor site. The reports
                                                 state whether the plant is receiving
                                                 increased oversight and the number
                                                 of planned inspections.
     PIM                                         The PIM provides a consolidated
                                                 listing of individual plant issues (i.e.,
                                                 inspection findings) that NRC uses
                                                 to assess plant performance.
     RPS                                         A system used by NRC to enter
                                                 administrative data about inspection
                                                 scheduling and limited data
                                                 regarding inspection results.
     Annual Report to Congress                   A report that provides a basic count
                                                 of inspection findings for the year.

Source: Office of the Inspector General (OIG) analysis of information sources




                                            11
                      Overview of NRC’s Management of the Baseline Security Inspection Program


      Additionally, regional branch chiefs stated that they can request that
      headquarters generate reports in response to individual staff requests, but
      reports focus on individual regions and requesters’ individual data needs.
      However, the headquarters representative responsible for responding to
      such requests told OIG that this type of analysis is labor intensive and
      requires piecing together data from the multiple sources listed above.

      Incidentally, it is important for NRC to perform cross-regional and cross-
      fleet analysis for purposes of identifying areas that may need more
      regulatory emphasis. This analysis can also be used to make strategic
      program decisions, inform the tools and inspection procedures that are
      used to develop findings, and ensure the program is achieving its intended
      results.

      Likewise, comprehensive cross-regional and cross-fleet analysis is
      important because NRC performs baseline security inspection activities at
      104 reactor units within 65 reactor sites throughout NRC’s four regions
      (see Figure 5). Moreover, approximately 45 percent of power reactor
      licensees manage more than one reactor site, and approximately 20
      percent maintain reactor sites in more than one region. See Appendix A
      for a table showing power reactor sites by licensee operator and their
      locations by NRC region.


Figure 5: Breakdown of Regional Reactor Sites and Reactor Units
           Region 1    Region 2 Region 3        Region 4   Totals

Reactor 17               18               16               14               65
Sites
Reactor 26               33               24               21               104
Units
Source: OIG analysis of NRC data




                                     12
                 Overview of NRC’s Management of the Baseline Security Inspection Program


NRC Management Does Not Emphasize Trend Analysis Across
Regions and Fleets

OIG found that NRC does not perform trend analysis across regions and
fleets because program management emphasizes analysis of individual
plant performance, and trends within each of the four regions.
Additionally, NRC does not actively maintain and manage a centralized
database for analyzing security inspection findings across regions and
fleets as evidenced by OIG’s analysis of NRC’s current information
sources.

Further, OIG could not determine if data in existing data systems is
complete and accurate. Two of the data systems NRC headquarters staff
use to access information may not be complete or accurate.

   First, RPS is used to collect information about scheduling inspections
   and also collects basic data points about findings. NRC does not use
   a single, consistent process for data entry or define data management
   controls for users of this database. The headquarters official
   responsible for obtaining and analyzing data from this system stated
   that, up until very recently, the data could not be reconciled in this
   system because regional officials had not consistently included the
   official in their distribution of findings reports.

   Second, NRC maintains, in addition to the information stored in RPS, a
   separate secure database – SLES – that holds inspection finding
   reports containing SGI data. OIG found that, for various reasons, this
   information is not easy to obtain or analyze and, in some cases, was
   not obtainable at all.

Improved Data Collection and Analysis Will Enhance NRC’s Ability
To Regulate and Improve Program Operations, Program Tools and
Procedures, and Program Results

Despite the lack of trending across regions and fleets, OIG found no
material adverse effect on NRC operations. However, NRC may miss
opportunities to improve monitoring and management of security issues,
inspection tools and procedures, and program results. Additionally,
improved data management and analysis can help NRC staff identify
trends that merit additional oversight or regulatory emphasis. This, in turn,

                                13
                Overview of NRC’s Management of the Baseline Security Inspection Program


can give NRC greater assurance that the inspection program is meeting
its objective to conduct fact-based assessments of licensee security
program performance.

Recommendations

OIG recommends that the Executive Director for Operations:

1. Develop and maintain a centralized database of security findings data
   to be used for evaluating licensee performance trends, and
   communicating this information to NRC staff, industry, and appropriate
   public stakeholders.

2. Formalize and implement a process for maintaining current and
   accurate data within a centralized database.

3. Formalize and implement a process for ensuring SGI findings data is
   current and accessible for use in trending security findings issues.




                               14
                                      Overview of NRC’s Management of the Baseline Security Inspection Program


          B.      NRC Lacks Consensus on Content and Application of SGI and
                  Significance Screen Tools

                  The ROP sets general standards for NRC’s oversight of power reactors,
                  and emphasizes objectivity, transparency, and consistency in NRC’s
                  assessments of licensee performance. NRC staff and industry
                  representatives expressed concern about the technical basis and
                  application of the SGI and Significance Screen tools.17 Although NRC
                  solicited staff comments in developing these assessment tools, NRC did
                  not test draft versions of the tools and, further, does not have procedures
                  for systematically reviewing SDP assessment tools on a periodic basis.
                  Staff consensus and understanding of SDP assessment tools is critical to
                  ensuring that staff can apply these tools in accordance with ROP
                  standards and avoid undue resource burdens on NRC and licensees.

                  The ROP Emphasizes Transparent, Consistent Regulation

                  The ROP sets general transparency and consistency standards for NRC’s
                  oversight of the nuclear power industry. Specifically, NRC should aim for
                  objective measurements of licensee performance and translate those
                  measurements into timely assessments that the public and licensees can
                  understand. Moreover, NRC should respond to licensee violations in a
                  consistent manner that reflects the potential safety impact of the
                  violations.

                  NRC Staff and Industry Concerns and Questions Focus on SGI and
                  Significance Screen Assessment Tools

                  Interviews and surveys of NRC staff and nuclear power industry
                  representatives regarding the security SDP showed that two assessment
                  tools—SGI and the Significance Screen—produced the greatest amount
                  of critical feedback. OIG received a broad range of comments regarding
                  the content and application of these tools. OIG also received suggestions
                  about how to improve these assessment tools. Additionally, some
                  comments reflected a lack of understanding of assessment tool features,
                  as well as doubts regarding the reliability of assessment results.




17
     See the ―Background‖ section of this report for information on security SDP assessment tools.

                                                     15
                Overview of NRC’s Management of the Baseline Security Inspection Program


OIG could not reconcile divergent staff and industry comments on the SGI
and Significance Screen tools, yet several points stand out. First, some
staff questioned the technical basis of criteria used to escalate findings.
For example, both the SGI and Significance Screen rely on time standards
to measure exploitability, but the rationale for these metrics was not clear
to some NRC and industry personnel. Second, respondents questioned
how these tools weigh mitigating information, and whether this information
is analyzed after a finding has been prematurely escalated. Third,
respondents questioned how some SGI and Significance Screen findings
can be coded as White or Yellow when violations appear unlikely to
impact plant safety or security. Lastly, some staff and industry personnel
questioned the potential for escalation bias in the Significance Screen.
The tool focuses on several particular security issues, and uses time and
consequence criteria that increase the likelihood of White or Yellow
findings.

NRC Revises SDP Tools, but Does Not Systematically Test and
Update Assessment Tools

In reviewing the history of security SDP development, OIG found that NRC
has tested other SDP tools prior to implementation but did not do so with
the SGI and Significance Screen tools. NRC solicited staff and industry
comments on draft tools, but did not test the draft tools by analyzing past
or hypothetical findings to determine how the draft tools would work in a
practical context. This differs from NRC’s 2004 SDP pilot effort, during
which headquarters and regional staff screened approximately 50 findings
to determine whether the results would be reasonable. Similarly, NRC’s
current effort to update the Force-on-Force SDP involves a findings
screening analysis.

OIG’s review also showed that NRC updates SDP assessment tools on a
circumstantial basis and does not have procedures to ensure that updates
are performed consistently. The SGI and Significance Screen tools
resulted from a 2007-2008 Enhancement Team effort that NRC initiated in
response to staff concerns about particular security issues. Further, that
Enhancement Team’s leader has since retired from NRC, thereby limiting
the institutional knowledge necessary to guide future SDP updates in the
absence of formal procedures or best practice guidance.




                               16
                                   Overview of NRC’s Management of the Baseline Security Inspection Program


               Consensus and Understanding of SDP tools Is Important for
               Regulatory Transparency

               Consensus and understanding among NRC staff regarding SDP
               assessment tools is critical to ensuring that staff can apply these tools
               easily and consistently in accordance with Reactor Oversight Process
               standards. This does not preclude professional disagreement over
               particular findings. However, staff must understand the rationale for
               findings so they can present them logically to licensees and uphold NRC’s
               integrity as a fair and impartial regulator. Further, NRC staff should have
               confidence in the soundness of escalated findings, given that the SDP
               requires extra staff resources for review and final disposition, and also
               impacts licensees with costs for responding to NRC and taking
               compensatory measures.18

               Recommendations

               OIG recommends that the Executive Director for Operations:

               4. Formalize and implement procedures for testing draft SDP tools by
                  staff to determine how draft tools would screen past violations and/or
                  hypothetical security violations.

               5. Formalize and implement a process for performing periodic review of
                  existing security SDP tools to check for consistency of application and
                  results.




18
   Greater-than-Green (e.g., White) findings can take between 5 and 18 months to close, depending on
the complexity of each case. Beyond the additional staff effort required to process these findings,
licensees may need to conduct independent analysis to support their positions in enforcement
conferences with NRC. Further, licensees may be obligated to upgrade plant infrastructure at
considerable cost if NRC maintains its position on an escalated finding.




                                                  17
                          Overview of NRC’s Management of the Baseline Security Inspection Program


IV.   CONSOLIDATED LIST OF RECOMMENDATIONS


          OIG recommends that the Executive Director for Operations:

          1. Develop and maintain a centralized database of security findings data
             to be used for evaluating licensee performance trends, and
             communicating this information to NRC staff, industry, and appropriate
             public stakeholders.

          2. Formalize and implement a process for maintaining current and
             accurate data within a centralized database.

          3. Formalize and implement a process for ensuring SGI findings data is
             current and accessible for use in trending security findings issues.

          4. Formalize and implement procedures for testing draft SDP tools by
             staff to determine how draft tools would screen past violations and/or
             hypothetical security violations.

          5. Formalize and implement a process for performing periodic review of
             existing security SDP tools to check for consistency of application and
             results.




                                         18
                        Overview of NRC’s Management of the Baseline Security Inspection Program


V.   AGENCY COMMENTS


        At an exit conference on February 29, 2012, agency management
        provided informal comments on a draft of this report. The Office of the
        Inspector General incorporated some of these comments into this report
        as appropriate. As a result, the agency opted not to provide formal
        comments for inclusion in this report.




                                       19
                                Overview of NRC’s Management of the Baseline Security Inspection Program


                                                                                          Appendix A
     POWER REACTOR SITES BY LICENSEE OPERATOR AND NRC
     REGION


Licensee                             Region 1 Region 2           Region 3       Region 4          Total
Ameren UE                                                                           1               1
Arizona Public Service Co.                                                          1               1
Constellation Energy                    3                                                           3
Detroit Edison Co.                                                    1                             1
Dominion Generation                     1         2                   1                             4
Duke Energy Power Company,
LLC                                               3                                                  3
Energy Northwest                                                                      1              1
Entergy Nuclear Operations, Inc.        4                             1               4              9
Exelon Generation Co., LLC              4                             6                              10
FirstEnergy Nuclear Operating Co.       1                             2                              3
Florida Power & Light Co.               1         2                   1                              4
FPL Energy Point Beach, LLC                                           1                              1
Indiana/Michigan Power Co.                                            1                              1
Nebraska Public Power District                                                        1              1
Nuclear Management Co.                                                2                              2
Omaha Public Power District                                                           1              1
Pacific Gas & Electric Co.                                                            1              1
PPL Susquehanna, LLC                    1                                                            1
Progress Energy                                   4                                                  4
PSE&G Nuclear                           2                                                            2
South Carolina Electric & Gas Co.                 1                                                  1
Southern California Edison Co.                                                        1              1
Southern Nuclear Operating Co.                    3                                                  3
STP Nuclear Operating Co.                                                             1              1
Tennessee Valley Authority                        3                                                  3
TXU Generating Company LP                                                             1              1
Wolf Creek Nuclear Operating
Corp.                                                                                1               1
Total                                   17       18                   16             14              65
      Source: OIG analysis of NRC data



                                               20
                        Overview of NRC’s Management of the Baseline Security Inspection Program


                                                                                 Appendix B
OBJECTIVE, SCOPE, AND METHODOLOGY

        OBJECTIVE

        The audit objective was to evaluate NRC’s management of the baseline
        security inspection program, including specific program features such as
        the Significance Determination Process.

        SCOPE

        The audit focused on reviewing NRC’s oversight of the baseline security
        inspection program and the Significance Determination Process. We
        conducted this performance audit at NRC headquarters and at the four
        NRC regions, from July 2011 through January 2012. Internal control and
        ROP principles related to the audit objective were reviewed and analyzed.
        Throughout the audit, auditors were aware of the possibility or existence of
        fraud, waste, or misuse in the program.

        METHODOLOGY

        OIG reviewed relevant Federal regulations and internal guidance
        pertaining to NRC’s regulatory authorities to oversee security inspections,
        including Chapter 10 Part 73 of the Code of Federal Regulations. OIG
        also reviewed NRC inspection manual chapters (IMC), NRC management
        directives (MD), and internal control guidance pertaining to the oversight
        of baseline security inspections including:

           IMC 0308 – Basis Document for Security Cornerstone of the Reactor
           Oversight Process.
           IMC 0609 Appendix E, Part I – Baseline Security Significance
           Determination Process for Power Reactors.
           MD 8.13 – Reactor Oversight Process.
           MD 8.7 – Reactor Operating Experience Program.
           MD 4.4 – Management Controls.
           Standards for Internal Control in the Federal Government.

        OIG also reviewed inspection reports housed in ADAMS and SLES,
        performed an electronic survey of regional inspectors, and conducted
        interviews with headquarters personnel (Rockville, MD), regional
                                       21
                Overview of NRC’s Management of the Baseline Security Inspection Program


personnel, industry representatives, and the Nuclear Energy Institute.
These interviews were conducted to obtain insights into NRC’s oversight
of baseline security inspections and the significance determination
process. The audit team also observed inspection activities at Three Mile
Island Nuclear Generating Station.

We conducted this performance audit in accordance with generally
accepted Government auditing standards. Those standards require that
we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit
objective.

The audit work was conducted by Beth Serepca, Team Leader; Paul
Rades, Audit Manager; Melissa Schermerhorn, Senior Management
Analyst; John Tornabane, Management Analyst; and Kevin Nietmann,
Senior Technical Advisor.




                               22
